svomune  (CCQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B bite contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-930
CIC SERVICES, LLC,
Petitioner,
Vv.

INTERNAL REVENUE SERVICE; DEPARTMENT
OF TREASURY; UNITED STATES OF AMERICA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PATRICK J.
SMITH AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5612 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of July, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

emmene| Kens 9. Lowe? Ondeaw ht hb

Notary Public Affiant 39970
